SEMIANNUAL REPORT TO CONGRESS

   April 1, 2010 to September 30, 2010




    Office of Inspector General
            44th Report
           October 2010

                                  Federal Labor Relations Authority
              1400 K Street, N.W. Suite 250, Washington, D.C. 20424
                  TABLE OF CONTENTS

                                                          PAGE

EXECUTIVE SUMMARY…………………………………………………………………….. 2

OVERVIEW OF THE FEDERAL LABOR RELATIONS
AUTHORITY…………………………………………………………………………………… 3

OFFICE OF INSPECTOR GENERAL……………………………………………………….. 5

OFFICE OF INSPECTOR GENERAL ACTIVITY…………………………………………. 6

REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ACT OF 1978,
AS AMENDED…………………………………………………………………………………..8

FREEDOM OF INFORMATION ACT REQUESTS……….………………………………..9

TABLE I – REPORTS WITH QUESTIONED COSTS………………………..…………… 10

TABLE II – RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE………11

TABLE III – SUMMARY OF AUDIT REPORTS WITH CORRECTIVE ACTIONS
            OUTSTANDING FOR MORE THAN 6 MONTHS…………………………. 12

APPENDIX A – ACRONYMS AND ABBREBRIATIONS………………………………… 13

APPENDIX B – DEFINITIONS OF TERMS USED………………………………………... 14
                           EXECUTIVE SUMMARY

This is the 44th Semiannual Report issued by the Office of the Inspector General (OIG) of the
Federal Labor Relations Authority (FLRA). This report, submitted pursuant to the Inspector
General Act of 1978, as amended, summarizes the major accomplishments of the FLRA OIG for
the period of April 1, 2010 to September 30, 2010. The executive summary highlights the most
significant activities of the OIG. Additional details pertaining to each activity can be found in
subsequent sections of this report.

During the period covered by this report, the OIG initiated the annual audit of the FLRA’s Fiscal
Year 2010 Financial Statements (AR-11-01); and the FLRA’s Federal Information Security
Management Act Evaluation 2010 (ER-11-01) compliance reviews. The FLRA Inspector
General responded to two Freedom of Information Act requests.




                                                2
  OVERVIEW OF THE FEDERAL LABOR RELATIONS
                AUTHORITY

FLRA’s MISSION
The mission of the FLRA is to carry out the five primary statutory responsibilities as efficiently
as possible and in a matter that gives full effect to the rights afforded employees and agencies
under the Federal Service Labor-Management Relations Statute (the Statute). Under the Statute,
the primary responsibilities (type of cases) of the FLRA include:

   (1)   Determining the appropriateness of units for labor organization representation (REP);
   (2)   Adjudicating exceptions to arbitrator’s awards (ARB);
   (3)   Resolving complaints of unfair labor practices (ULP);
   (4)   Resolving bargaining impasses; and
   (5)   Resolving issues relating to the duty to bargain (NEG).

FLRA’s ORGANIZATION
The FLRA conducts it case-processing activities through:

    • The Office of the General Counsel (OGC) of the Authority – led by the General Counsel,
      who is appointed by the President and confirmed by the Senate -- which, through regional
      offices, is the entry point for ULP charges filed with the FLRA. The OGC also processes
      REP petitions filed with the FLRA and decides appeals of Regional Directors’ decisions
      dismissing ULP charges.

    • The Office of Administrative Law Judges is the office in which judges appointed by the
      Authority conduct administrative hearings and issue recommended decisions in cases
      involving alleged ULPs and issue decisions involving applications for attorney fees under
      the Back Pay Act or the Equal Access to Justice Act.

    • The Authority is a quasi-judicial body with three full-time Members appointed by the
      President and confirmed by the Senate that resolves appeals in ULP and REP cases and
      adjudicates exceptions to ARB awards and NEG appeals.

    • The Federal Service Impasses Panel, which consists of seven part-time members
      appointed by the President (without Senate confirmation), resolves impasses between
      Federal agencies and unions representing Federal employees under the Statute and the
      Federal Employees Flexible and Compressed Work Schedules Act.

    • The FLRA also provides full staff support to two other entities: the Foreign Service
      Impasse Disputes Panel and the Foreign Service Labor Relations Board (FSLRB).


                                                 3
The Chairman as the Agency head serves as FLRA’s Chief Executive and Administrative Officer
and is responsible for agency-wide administrative functions, such as purchasing, human
resources, budgeting and finance, information technology, leasing of office space and agency-
wide performance management. The Chairman also chairs the FSLRB.

To carry out the Chairman’s statutory responsibilities, the Office of the Chairman oversees the
following offices:

   •      The Office of the Executive Director provides agency-wide operational support through
          the following divisions: Budget and Finance, Administrative Services and Information
          Resources Management.

   •      The Office of the Solicitor represents the agency in court proceedings before all United
          States Courts and provides the Chairman legal advice on various legal issues.

   •      The Office of Human Resources is responsible for providing agency-wide Human
          Resource services, and leading human capital management efforts pursuant to the FLRA
          Strategic Plan.

                                          ORGANIZATION CHART
                                                         AUTHORITY
                                                        CHAIRMAN AND
                                                            CHIEF
                                                          EXECUTIVE
                                                           OFFICER




         FOREIGN
         SERVICE            FOREIGN           FEDERAL
                                                                       OFFICE OF THE           AUTHORITY
          LABOR             SERVICE           SERVICE                                                                    GENERAL
                                                                        INSPECTOR              MEMBERS
        RELATIONS           IMPASSE          IMPASSES                                                                    COUNSEL
                                                                         GENERAL                  (2)
          BOARD         DISPUTES PANEL         PANEL




                                                                                             CHIEF COUNSELS
                                                                                                                     REGIONAL
                                                                                              (ONE TO EACH
                                                                                                                      OFFICES
                                                                                                MEMBER)
                                                                                                                        (7)
                                                                                                 & STAFF




                                                                                                                  COLLABORATION
           EQUAL                                                                                                        AND
                          OFFICE OF THE     OFFICE OF THE                                    CHIEF COUNSEL
        EMPLOYMENT                                                     OFFICE OF THE                               ALTERNATIVE
                           EXECUTIVE       ADMINISTRATIVE                                        TO THE
        OPPORTUNITY                                                     SOLICITOR                                     DISPUTE
                            DIRECTOR         LAW JUDGES                                        CHAIRMAN             RESOLUTION
         PROGRAM
                                                                                                                     PROGRAM




                                            INFORMATION                                                    CASE INTAKE
       ADMINISTRATIVE     BUDGET AND                                                     HUMAN
                                             RESOURCES                                                         AND
         SERVICES           FINANCE                                                    RESOURCES
                                            MANAGEMENT                                                     PUBLICATION
          DIVISION          DIVISION                                                    DIVISION
                                               DIVISION                                                      DIVISION




                                                             4
                OFFICE OF INSPECTOR GENERAL

The Inspector General Act of 1978, as amended (hereafter referred to as the IG Act), requires
FLRA and other small agencies to establish an Office of Inspector General (OIG). Recently, the
Dodd-Frank Wall Street Reform and Consumer Protection Act (P.L. 111-203) amended the IG
Act, by changing the definition of head of the agency in regard to the Inspector General (IG)
reporting relationship. Public Law 111-203 provides that the “head of the designated Federal
entity no longer will be the Chairman alone. Instead, it will be all Authority members.
Accordingly, the FLRA IG now reports to and is under the general supervision of the Chairman
and Authority Members.

The FLRA IG is responsible for:

   (1) conducting and supervising audits and investigations relating to FLRA programs and
       operations;
   (2) detecting and preventing fraud, waste and abuse of agency programs and operations
       while providing leadership and coordination;
   (3) recommending policies designed to promote economy, efficiency, and effectiveness of
       the establishment; and
   (4) keeping the Chairman, Authority Members and Congress fully and currently informed
       about problems and deficiencies, as well as the necessity for corrective actions.

Acting Inspector General Charles R. Center was replaced by a permanent Inspector General,
Dana Rooney-Fisher on August 30, 2010.




                                              5
      OFFICE OF INSPECTOR GENERAL ACTIVITY

AUDITS AND EVALUATIONS

In accordance with the IG Act, the FLRA OIG conducts, supervises and coordinates audits and
evaluations relating to programs and operations of the FLRA.

Ongoing Audits and Evaluations

One audit and one evaluation are ongoing at the close of the reporting period:

 (1) Audit of the FLRA’s Fiscal Year (FY) 2010 Financial Statements (AR-11-01); and
 (2) FLRA’s Federal Information Security Management Act (FISMA) Evaluation 2010 (ER-
     11-01).

These engagements are planned to be completed in the first half of FY 2011 and the results will
be included in the next semiannual report.

INVESTIGATIVE ACTIVITIES
The FLRA OIG receives and investigates allegations of fraud, waste, abuse and misconduct
within FLRA programs and operations. The FLRA OIG investigations can give rise to
administrative, civil and criminal penalties. Based on investigations conducted, the FLRA IG
makes recommendations to FLRA management regarding administrative and civil matters.
Investigations which uncover potential criminal activity are referred to the Department of
Justice.

In order to facilitate reporting of allegations, FLRA OIG maintains a hotline (see “Contacting
the Office of Inspector General”). During the reporting period, the OIG did not receive any
complaints.

During the time period covered by this report, there were no new or ongoing investigations.

OTHER ACTIVITIES

Regulatory Review

Under Section 4(a)(2) of the IG Act, OIG reviews existing and proposed legislation and
regulations relating to programs and operations of FLRA and to make recommendations in the
semiannual report. During this reporting period the OIG reviewed the draft Federal Register
notice of interim FLRA supplemental ethics rules. These proposed rules addressed approval
requirements for and certain prohibitions of outside employment.




                                               6
Peer Review

Offices of Inspectors General performing audits are required to perform (and undergo) reviews
of other OIG offices every 3 years to ensure policies and/or procedural systems are in place
that provide reasonable assurance of compliance with Government Auditing Standards. New
reporting requirements contained in the Dodd-Frank Wall Street and Consumer Protection Act
of 2010, IGs are now required to include, in their semiannual reports, information pertaining to
peer review reports for which they are either the reviewing or the reviewed IG.

The United States International Trade Commission completed a peer review of the FLRA OIG
and issued a report on its system of quality controls on September 16, 2008. Management has
taken action to close the weaknesses identified in the peer review. The FLRA OIG will have a
peer review conducted by another OIG in FY 2011.

Liaison Activities

The FLRA IG is a member of the Council of Inspectors General on Integrity and Efficiency,
which was established on October 14, 2008, pursuant to the Inspector General Reform Act of
2008.




                                               7
  REPORTING REQUIREMENTS OF THE INSPECTOR
      GENERAL ACT OF 1978, AS AMENDED

The reporting requirements of the Inspector General Act of 1978, as amended, are listed in the
following table along with the location of the required information. The word “None” appears
where there is no data to report under a particular requirement.


REFERENCE                      REPORTING REQUIREMENT                                  PAGE

Section 4(a)(2)    Review of legislation and regulations                             p. 6

                   Significant problems, abuses, and deficiencies relating to the
Section 5(a)(1)    administration of programs and operations                        None

                   Recommendations with respect to significant problems,
Section 5(a)(2)    abuses or deficiencies                                           None

                   Recommendations included in previous semiannual reports on
Section 5(a)(3)    which corrective action has not been completed (Table III)       p.12

Section 5(a)(4)    Matters referred to prosecutive authorities                      None

Section 5(a)(5)    Summary of reports                                               None

Section 5(a)(6)    Listing by subject of audit reports issued                       None

Section 5(a)(7)    Summary of significant reports                                   None

Section 5(a)(8)    Statistical table – Reports with questioned costs (Table I)      p.10

                   Statistical table – Recommendations that funds be put to
Section 5(a)(9)    better use (Table II)                                            p.11

                   Summary of previous audit reports without management
Section 5(a)(10)   decisions                                                        None

Section 5(a)(11)   Description and explanation of revised management decisions      None

Section 5(a)(12)   Management decisions with which the IG is in disagreement        None

                   Information under section 05(b) of the Federal Financial
Section 5(a)(13)   Management Improvement Act of 1996                               None


                                                8
      FREEDOM OF INFORMATION ACT REQUESTS


Number of Freedom of Information Act (FOIA) Requests Received                              3

Number of FOIA Requests Processed                                                          2
Number Granted
Number Partially Granted                                                                   1
Number Not Granted                                                                         1
Reasons for Denial
No Records Available
Referred to Other Agencies                                                                 1
Requests Denied in Full Exemption 3
Requests Denied in Full Exemption 5
Requests Denied in Full Exemption 7(A)
Requests Denied in Full Exemption 7(C)
Request Withdrawn
Not a Proper FOIA Request
Not an Agency Record
Duplicate Request
Other

Requests for OIG Reports from Congress and Other Government Agencies
Received
Processed
Appeals Received
Appeals Processed
Appeals Completely Upheld
Appeals Partially Reversed
Not Proper FOIA Request
Other
Number of OIG Reports/Documents Released in Response to Requests                          8
Note 1: We received 1 FOIA request that will be processed and reported in the next semiannual
        report.
Note 2: A request may involve more than one report.
Note 3: During this 6-month period, 0 reports were posted on line on the OIG Web site:
       http://www.flra.gov/OIG




                                              9
                                                                            TABLE I

              REPORTS WITH QUESTIONED COSTS

The following statistical table summarizes the OIG monetary recommendations and the FLRA
responses to those recommendations.

                                         NUMBER
                                           OF          QUESTIONED UNSUPPORTED
                                         REPORTS         COSTS       COSTS

A. For which no management decision          0                0                  0
   has been made by the
   commencement of the reporting
   period.

B. Which were issued during the              0                0                  0
   reporting period.

                       Subtotals (A+B)       0                0                  0

C. For which a management decision           0                0                  0
   was made during the reporting
   period.

   (i) Dollar value of disallowed            0                0                  0
       costs

   (ii) Dollar value of costs not            0                0                  0
        disallowed

D. For which no management decision          0                0                  0
   has been made by the end of the
   reporting period.

E. Reports for which no management           0                0                  0
   decision was made within six
   months of issuance.




                                            10
                                                                    TABLE II

            RECOMMENDATIONS THAT FUNDS BE
                  PUT TO BETTER USE

                                                    NUMBER OF   DOLLAR VALUE
                                                     REPORTS     (In Thousands)

A. For which no management decision has been            0              0
   made by the commencement of the reporting
   period.

B. Which were issued during the reporting               0              0
   period.

                                Subtotals (A+B)         0              0

C. For which a management decision was made             0              0
   during the reporting period.

   (i) Dollar value of disallowed costs                 0              0

   (ii) Dollar value of costs not disallowed            0              0

D. For which no management decision has been            0              0
   made by the end of the reporting period.

E. Reports for which no management decision             0              0
   was made within six months of issuance.




                                               11
                                                             TABLE III

SUMMARY OF AUDIT REPORTS WITH CORRECTIVE
   ACTIONS OUTSTANDING FOR MORE THAN
                6 MONTHS

                                                 RECOMMENDATIONS

  REPORT TITLE            REPORT      ISSUE   NUMBER   CLOSED   OPEN
                          NUMBER      DATE


Report on Evaluation of   FY09FISMA   07/09     16       0       16
FLRA’s FISMA
Compliance




                                       12
                                                         APPENDIX A

          ACRONYMS AND ABBREVIATIONS

ARB              Arbitration (type of FLRA case)

FISMA            Federal Information Security Management Act of 2002

FLRA             Federal Labor Relations Authority

FOIA             Freedom of Information Act

FSLRB            Foreign Service Labor Relations Board

FY               Fiscal Year

IG               Inspector General

NEG              Negotiability (Type of FLRA case)

OGC              Office of the General Counsel

OIG              Office of Inspector General

P.L.             Public Law

REP              Representation (Type of FLRA Case)

STATUTE          Federal Labor-Management Relations Statute

ULP              Unfair Labor Practice (Type of FLRA case)




                               13
                                                                        APPENDIX B

                      DEFINITIONS OF TERMS USED

Disallowed Cost                A questioned cost that management, in a management decision,
                               has sustained or agreed should not be charged to the Government.

Final Action                   The completion of all actions that management has concluded, in
                               its management decision, are necessary with respect to the
                               findings and recommendations. If management concluded that no
                               actions were necessary, final action occurs when management
                               decision is issued.

Management Decision            An evaluation by management of the findings and
                               recommendations included in an audit report and the issuance of
                               a final decision by management concerning its response to such
                               findings and recommendations, including actions concluded to be
                               necessary.

Questioned Cost                A cost questioned because of: (a) an alleged violation of a law,
                               regulation, contract, or other agreement or document governing
                               the expenditures of funds; (b) a finding that, at the time of the
                               audit, such cost is not supported by adequate documentation; or
                               (c) a finding that the expenditure of funds for the intended
                               purpose is unnecessary or unreasonable.

Recommendation That Funds Be   A recommendation that funds could be used more efficiently if
Put To Better Use              management took actions to complete the recommendation,
                               including: (a) reduction in outlays; (b) deobligate funds; (c) costs
                               not incurred by implementing recommended improvements
                               related to the operations of the establishment, a contractor; (d)
                               avoidance of unnecessary expenditures noted in preaward reviews
                               of contract; or (e) any other savings which specifically identified.

Unsupported Cost               A cost questioned because at the time of the audit, such cost is
                               not supported by adequate documentation.




                                          14
                CONTACTING THE
          OFFICE OF INSPECTOR GENERAL


              If you believe an activity is
  wasteful, fraudulent, or abusive of Federal funds,

                           Please Call


            Toll Free 1-800-331-3572 or
 (202)218-7744 in the Washington metropolitan area

                          or write to:

            Federal Labor Relations Authority

                Office of Inspector General

                      1400 K Street, NW

                           Suite 250

                  Washington, D.C. 20424




  Information can be provided anonymously. Federal Government
employees are protected from reprisal and anyone may have his or her
                    identity held in confidence.
